<html>
<title> - ALIEN SMUGGLING/HUMAN TRAFFICKING: SENDING A MEANINGFUL MESSAGE OF DETERRENCE</title>
<body><pre>[Senate Hearing 108-315]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-315

  ALIEN SMUGGLING/HUMAN TRAFFICKING: SENDING A MEANINGFUL MESSAGE OF 
                               DETERRENCE

=======================================================================

                                HEARING

                               before the

         SUBCOMMITTEE ON CRIME, CORRECTIONS AND VICTIMS' RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 25, 2003

                               __________

                          Serial No. J-108-30

                               __________

         Printed for the use of the Committee on the Judiciary




91-788              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

         Subcommittee on Crime, Corrections and Victims' Rights

              LINDSEY O. GRAHAM, South Carolina, Chairman
ORRIN G. HATCH, Utah                 JOSEPH R. BIDEN, Jr., Delaware
CHARLES E. GRASSLEY, Iowa            HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LARRY E. CRAIG, Idaho                RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
                 James Galyean, Majority Chief Counsel
                Neil MacBride, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware, prepared statement...................................    34
Cornyn, Hon. John, a U.S. Senator from the State of Texas........     5
Graham, Hon. Lindsey O., a U.S. Senator from the State of South 
  Carolina.......................................................     1
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah, 
  prepared statement.............................................    72
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    73

                               WITNESSES

Boyle, Jane J., U.S. Attorney, Northern District of Texas, 
  Dallas, Texas..................................................    24
Charlton, Paul K., U.S. Attorney, District of Arizona, Phoenix, 
  Arizona........................................................    26
Cohn, Sharon B., Senior Counsel, International Justice Mission, 
  Washington, D.C................................................    20
DeMore, Charles H., Interim Assistant Director of Investigations, 
  Bureau of Immigration and Customs Enforcement, Department of 
  Homeland Security..............................................     6
Harris, Robert L., Deputy Chief, U.S. Border Patrol, Bureau of 
  Customs and Border Protection, Department of Homeland Security.     3
Malcolm, John, Deputy Assistant Attorney General, Criminal 
  Division, Department of Justice................................     8

                       SUBMISSIONS FOR THE RECORD

Boyle, Jane J., U.S. Attorney, Northern District of Texas, 
  Dallas, Texas, prepared statement..............................    36
Charlton, Paul K., U.S. Attorney, District of Arizona, Phoenix, 
  Arizona, prepared statement....................................    41
Cohn, Sharon B., Senior Counsel, International Justice Mission, 
  Washington, D.C., prepared statement...........................    51
DeMore, Charles H., Interim Assistant Director of Investigations, 
  Bureau of Immigration and Customs Enforcement, Department of 
  Homeland Security, prepared statement..........................    59
Harris, Robert L., Deputy Chief, U.S. Border Patrol, Bureau of 
  Customs and Border Protection, Department of Homeland Security, 
  prepared statement.............................................    65
Malcolm, John, Deputy Assistant Attorney General, Criminal 
  Division, Department of Justice, prepared statement............    75

 
  ALIEN SMUGGLING/HUMAN TRAFFICKING: SENDING A MEANINGFUL MESSAGE OF 
                               DETERRENCE

                              ----------                              


                         FRIDAY, JULY 25, 2003

                              United States Senate,
   Subcommittee on Crime, Corrections and Victims' Rights, 
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:55 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Lindsey O. 
Graham, Chairman of the Subcommittee, presiding.
    Present: Senators Graham and Cornyn.

  OPENING STATEMENT OF HON. LINDSEY O. GRAHAM, A U.S. SENATOR 
                FROM THE STATE OF SOUTH CAROLINA

    Chairman Graham. Good morning. I appreciate everyone coming 
for the hearing. We are going to do something rarely we do in 
the Senate. We are going to get started ahead of schedule. I do 
not know if it is going to be a trend that catches on or not 
but we will try it. The hearing will come to order.
    I have a short opening statement. Then I look very much 
forward to hearing from our witnesses about a topic I think if 
more Americans were aware of, there would be a lot discussed 
about what is going on, and I appreciate the people coming 
today who are on the front lines of fighting this terrible 
condition that exists in the world.
    As we all know, people from all over the world want to come 
to America to pursue a better life for themselves and their 
families. Unfortunately, however, some people entrust their 
lives to some very dangerous people in the effort to gain our 
shores. I have been told that the business of trafficking human 
beings is about a $9-1/2 billion business.
    Some people brought against their will, kept as human 
chattel, enslaved in horrible conditions in the midst of our 
freedom. This is 2003 and people are being taken against their 
will and forced to work in conditions you would not believe, so 
the world needs to be more aware that we have not progressed as 
far as we should have.
    I have called today's hearing to examine the issues related 
to those situations, and after hearing the horrible deaths of 
aliens smuggled into the country and inhumanely abandoned along 
a Texas highway last month, I wanted this Committee to examine 
whether we are doing all we can to combat those horrible 
crimes. Alien smugglers and traffickers, through unabashed acts 
of profiteering, endanger lives of countless aliens while 
compromising the integrity of our immigration laws at the same 
time. Make no mistake, the human incentives for human smuggling 
are enormous, $9-1/2 billion.
    The commodities involved in this trade, this business, are 
men, women and children who are smuggled, and they represent 
substantial profits for those people who decide to do this for 
a living, and no adjective can adequately describe the people 
involved in smuggling.
    The State Department estimates that more than one million 
women and children are trafficked around the world each year 
generally for the purpose of domestic servitude, sweatshop 
labor or sexual exploitation. At any given time the Department 
estimates that thousands of people are in the smuggling 
pipeline with the United States being the primary target. 
Smugglers deliver some 50,000 aliens here each year.
    Alien smuggling is a global problem which requires a 
systematic and coordinated response. We should do all we can 
within our criminal laws to combat this terrible problem. I 
hope this hearing will serve as the beginning of a serious 
examination of those smuggling and trafficking crimes, and 
whether our law enforcement authorities have the proper tools 
to combat them.
    Accordingly, we will hear and see the evidence of some of 
the more tragic stories. I also want to focus attention on 
those smuggling or trafficking cases where no tragic 
consequences occur. Unbelievably, some people who traffic human 
beings are sentenced to time served, months, not years.
    Given the risk associated with these crimes every time they 
are carried out, the punishment should be appropriate to deter 
future smuggling or trafficking and to sufficiently sanction 
those who are caught. For instance, the Title 8 provisions 
provide that a person found guilty of alien smuggling where 
death results is subject to the full range of punishments 
including the death penalty.
    An issue that I want to explore in this hearing is why when 
the death results from a Title 18 traffic offense, where the 
victims are arguably more vulnerable, the defendant is not 
subject to the full range of punishments, specifically the 
death penalty. I look forward to hearing from the Department if 
there is a principle reason why there is a difference in the 
punishment on those closely-related cases.
    In other areas of deterrence we should explore the 
punishments in those cases where the risk of these serious 
consequences exists, but because of outstanding law enforcement 
or efforts, death or serious bodily injury is avoided. In other 
words, if you are caught involved in the activity where no one 
is hurt, you have set in motion forces where people could be 
hurt, and I think we all agree the punishments are too light in 
those areas.
    A debate regarding immigration policy is not what this 
hearing is about. Senator Chambliss, my good friend, is in 
charge of the Immigration Subcommittee. This hearing is about 
the scope of the problem, what we are doing to deter the 
problem, and what we can do in terms of law enforcement changes 
to make sure that our criminal laws in this country are 
sufficient to tackle what I think most Americans feel is a 
disgusting practice, and what can we do internationally? What 
can we do to help you, those on the front lines, do a better 
job in stopping this problem.
    I would like to welcome our first panel, and any statements 
from Senators of the Subcommittee or full Committee, we will 
introduce into the record at this time. I have a statement of 
Senator Hatch which will be introduced into the record.
    As I said, I would like to welcome our first panel, 
Assistant Attorney General John Malcolm, who supervises 
Department of Justice's smuggling enforcement efforts, Interim 
Assistant Director Chuck DeMore from the Department of Homeland 
Security, who has the investigative section of the Bureau of 
Immigration and Customs Enforcement; and finally, Deputy Chief 
Robert Harris from the Bureau of Customs, Border and Protection 
in the Department of Homeland Security.
    I would appreciate it, gentlemen, if you could limit your 
statements, if possible, to 5 minutes. I will swear you in. It 
is just going to be us, it looks like, so we will do this 
fairly informally, and if you will give me a little bit about 
the background of your expertise and what your agency does, I 
very much look forward to your testimony.
    If you could rise at this time, please? Raise your right 
hand. Do you solemnly swear the testimony you are about to give 
is the truth, the whole truth, and nothing but the truth, so 
help you God?
    Mr. Malcolm. I do.
    Mr. DeMore. I do.
    Mr. Harris. I do.
    Chairman Graham. Deputy Chief Harris, do you mind starting? 
Thank you very much.

   STATEMENT OF ROBERT L. HARRIS, DEPUTY CHIEF, U.S. BORDER 
PATROL, BUREAU OF CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Harris. Chairman Graham, Ranking Member Biden, and 
distinguished Subcommittee members, it is my honor to have the 
opportunity to appear before you today to discuss the mission 
of the United States Border Patrol, now a part of the Bureau of 
Customs and Border Protection. My name is Robert L. Harris, and 
I am the Deputy Chief of the United States Border Patrol.
    As you know, on March 1st, 2003, border patrol agents, 
immigration inspectors, agricultural inspectors, and customs 
inspectors, merged to form the Bureau of Customs and Border 
Protection within the Border and Transportation Security 
Directorate, a part of Homeland Security. Now, for the first 
time in our Nation's history, agencies of the U.S. Government 
with significant border responsibilities have been brought 
together under one roof. With our combined skills and 
resources, we will be far more effective than we were as 
separate agencies.
    Within the new Bureau the mission of the United States 
Border Patrol remains unchanged. Our priority mission is the 
prevention of terrorism, and in carrying out this mission it is 
our responsibility to patrol our borders between official ports 
of entry, a mission that is critical to U.S. national security.
    Our area of responsibility includes 2,000 miles of the 
U.S.-Mexico border, 4,000 miles of the U.S.-Canada border, as 
well as 2,000 miles of coastal waters surrounding the Florida 
peninsula and Puerto Rico. The current staff of over 10,400 
border patrol agents take this mission very seriously. With our 
increasing capabilities to monitor and patrol--we are 
increasing our capabilities to monitor and patrol our northern 
border. In addition to the 245 additional agents for our 
northern border last year, Commissioner Robert Bonner recently 
directly the permanent assignment of an additional 374 agents 
to further strengthen our enforcement presence there. This new 
deployment, once completed, will provide the American people 
with a total of 1,000 agents to strengthen security along the 
U.S.-Canada border. These agents will enforce a strategy with 
the cornerstones of technology, intelligence, by national and 
interagency cooperation.
    Illegal migration and alien smuggling is a serious problem, 
and its impact and the associated criminal activity that 
accompanies it is far reaching. An uncontrolled border presents 
great concern, spreading border violence and degrading the 
quality of life in the border communities.
    The Border Patrol operates under a comprehensive national 
strategy designed to gain and maintain control of our Nation's 
borders. Our operations have had a significant effect on 
illegal migration along the southwest border, relying upon the 
proper balance of personnel, equipment, technology and border 
infrastructure. Our national strategy is based on the concept 
of prevention through deterrence. Overall, our efforts have 
been very successful with significant decreases in 
apprehensions and illegal entries. Apprehensions have declined 
from a high of over 1.6 million arrests in fiscal year 2000, 
down to less than 1 million in fiscal year 2002. We are also a 
leader in the southwest border in narcotics seizures. In fiscal 
year 2002 our agents seized over one million pounds of 
marijuana and over 7 tons of cocaine.
    In addition to significant arrests of aliens and narcotic 
seizures, cities like San Diego, El Paso and McAllen have 
experienced decreased crime rates and an overall improvement in 
the quality of life. This reduction in crime is due in part to 
the work of our agents and the effectiveness of our strategy.
    Through it all the Border Patrol has encouraged and 
maintained a positive relationship with local communities and 
law enforcement agencies, Federal, State and local, operating 
within the immediate border area. In recent years, unscrupulous 
alien smugglers have moved migrants into more remote areas with 
hazardous terrain and extreme conditions. As smuggling tactics 
and patterns have shifted, our strategy has been flexible 
enough to meet those challenges. Building on longstanding 
safety concerns, we have implemented a border safety initiative 
along the entire southwest border. Striving to create a safer 
border environment, we pro-actively inform migrants of the 
hazards before crossing the border illegally, and have 
established border search, trauma and rescue, or BORSTAR teams, 
as we call them, to provide quick response to those in life-
threatening situations. In fiscal year 2002 our BORSTAR agents 
recused over 1,700 people in distress. We have developed public 
service announcements for television, radio and newspaper 
agencies, both in the United States and Mexico, warning against 
the dangers of smuggling and illegal entry.
    Nationally, the Border Patrol is tasked with the very 
complex, sensitive and difficult job which historically has 
presented immense challenges. The challenge is huge, but one 
which our agents accept willingly, with vigilance, dedication 
to service and integrity. I know I speak for all of our men and 
women when I say that we are proud to serve the American people 
as part of the newly-created Department of Homeland Security.
    I would like to thank the Subcommittee for the opportunity 
to present this testimony today and I would be pleased to 
respond to any questions that you may have.
    [The prepared statement of Mr. Harris appears as a 
submission for the record.]
    Chairman Graham. Thank you, Chief Harris.
    At this time I want to welcome Senator Cornyn to the 
hearing. He has been a tremendous ally of mine in trying to 
bring the hearing about, and bringing some solutions to the 
table.
    If you would like, Senator Cornyn, you may make an opening 
statement.

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Thank you, Mr. Chairman.
    Thanks to all the witnesses who are with us today, and the 
second panel as well, that we are looking forward to hearing 
from.
    I will just have very brief remarks. I want to say that you 
all have my profoundest support and empathy, I guess, for the 
tremendous challenge you have. Unfortunately, I think the 
challenges are huge and we are not yet--we have not yet met 
those challenges when it comes to controlling our borders, 
dealing with exploitation of those who come to this country in 
order to try to find a better way of life. Of course, in my 
State of Texas, we have seen recent tragedies dealing with the 
phenomenon that we are talking about today.
    I am grateful to Chairman Graham for convening this 
Subcommittee hearing so we can talk more about it and what we 
can do to combat it. I know the facts of the Victoria, Texas 
case have been widely reported, but I think we can all gain 
from being reminded of the disturbing facts. In May of this 
year 17 undocumented aliens were found dead inside of a 
tractor-trailer. The victims ranged in age from 7-years-old to 
91-years-old. These suffered a death while riding in the back 
of a trailer with possibly over 100 others from Mexico into 
South Texas. Investigators believe the temperature in the truck 
exceeded 100 degrees. As of July 17, 2003 a total of 14 
defendants have been charged with various smuggling-related 
crimes arising out of this incident. Despite this case, 
smugglers continue to use sealed railroad cars and tractor-
trailers to move illegal aliens through the South Texas 
smuggling corridor, and I think we have seen that they are only 
limited by their imagination in terms of the means and methods 
by which they bring their cargo, their human cargo across the 
border. Only days after the discovery in Victoria, Texas, 16 
other migrants were discovered in a tractor-trailer only an 
hour away.
    The news of these instances has saddened and angered me, 
and I think many others. The criminals involved preyed on these 
families' desire to come to the United States for a better 
life. I believe these callous and willful actions not only 
claimed lives and endangered others, but threatened the 
national security of our country. I understand the Chairman is 
investigating legislative proposals to increase the penalties 
for human traffickers, and I applaud him and support those 
efforts wholeheartedly, and offer my assistance in any way I 
can possibly provide.
    Let me just say in conclusion I appreciate your present 
here, and you have the support of not only this Committee, but 
the entire U.S. Congress and the American people, to try to 
deal with the enormous and sometimes it seems overwhelming 
challenges we have when it comes to regaining security of our 
borders and dealing with the profoundly sad and tragic 
exploitation of those who cross our borders seeking a better 
life.
    Thank you, Mr. Chairman.
    Chairman Graham. Thanks, Senator Cornyn.
    Mr. DeMore?

 STATEMENT OF CHARLES H. DEMORE, INTERIM ASSISTANT DIRECTOR OF 
INVESTIGATIONS, BUREAU OF IMMIGRATION AND CUSTOMS ENFORCEMENT, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. DeMore. Thank you, Mr. Chairman, and members of the 
Committee. I am Chuck DeMore, Interim Assistant Director of 
Investigations for the Bureau of Immigration and Customs 
Enforcement, and I thank you for the opportunity to address you 
regarding our efforts to combat smuggling of aliens into the 
United States.
    The creation of the Department of Homeland Security and 
specifically BICE, combined the legal authorities and the 
investigative tools necessary to effectively combat organized 
human smuggling and trafficking.
    I would like to begin by providing an important 
clarification and necessary distinction between the terms 
``alien smuggling'' and ``human trafficking.'' Human 
trafficking involves force, fraud or coercion, and occurs for 
the purpose of either forced labor or commercial sexual 
exploitation, generally over an extended period of time. Alien 
smuggling, on the other hand, is an enterprise that produces 
short-term profits resulting from one-time fees paid by the 
smuggled aliens themselves or their respondents. Human 
smuggling has become a lucrative international criminal 
enterprise and continues to grow in the United States. The 
commodities involved in this multibillion dollar illicit are 
men, women and children.
    Traffickers and smugglers transport undocumented migrants 
into the United States for work in licit and illicit 
industries. The trafficker's foremost goal, like the smuggler, 
is to maximize profits. To illustrate the callous disregard 
smugglers have for human life, I would like to provide you with 
the details of some recent tragic smuggling involving deaths.
    In October 2002 in Iowa, 11 undocumented aliens were found 
dead in a covered grain car near Dennison, trapped in the grain 
car for 4 months. The crime is the subject of an ongoing 
investigation.
    In May 2003, as was alluded to, in Victoria, Texas, 17 
undocumented aliens were found dead inside a tractor-trailer. 
Four hours into their 300-mile trip to Houston, oxygen ran out 
in the dark, sealed, hot and airless trailer. The trapped 
aliens beat their way through the trailer tail lights in a 
desperate attempt to signal for help. Within 72 hours of the 
grisly discovery, special agents and intelligence analysts from 
BICE, in collaboration with our colleagues from the Bureau of 
Customs and Border Protection, the Texas Department of Public 
Safety, the Victoria County District Attorney's Office, the 
United States Secret Service, and the Victoria County Sheriff's 
Office, identified and arrested four defendants in Ohio and 
Texas. As of July 17, 2003, a total of 14 defendants have been 
charged with various smuggling-related crimes arising from this 
tragic incident.
    Still, as you suggested, Senator, smugglers remain 
undaunted by this tragedy. They continue to use sealed railroad 
cars and tractor-trailers to move aliens throughout the South 
Texas smuggling corridor. In fact, only days, as you suggested, 
after the discovery in Victoria, 16 other migrants were 
discovered in a tractor-trailer an hour away. It remains 
unknown what their fate might have been had they not been 
discovered by law enforcement.
    In January 2000 in the State of Washington, 3 undocumented 
aliens were found dead in a cargo container in Seattle. The 3 
were part of a group of 18 smuggled Chinese aliens that had 
been sealed in the container for a period of 2 weeks crossing 
the sea. The survivors, who were in dire medical condition, 
remained in the container with the deceased until they were 
discovered.
    In March 2000 in California, 6 undocumented migrants were 
found in the San Diego East County mountains, 4 of whom died 
due to hypothermia. The smugglers abandoned the group in the 
snowy mountains even as the aliens pleaded not to be abandoned.
    In December 2001 in Florida, a capsized vessel was found in 
the Florida straits, alleged to have been carrying 41 Cuban 
nationals including women and children. All are believed to 
have perished at sea.
    Finally, last year in Arizona, 133 deaths were attributed 
to alien smuggling in the unforgiving Arizona deserts. 
Tragically, many of these deaths were due to aliens being 
abandoned in the desert heat. Unfortunately, not all of the 
deaths were accidental. The BICE Special Agent in Charge in 
Phoenix is currently investigating several alien-smuggling 
organizations believe responsible for 13 homicides. Several of 
the deceased were undocumented aliens who were unable to pay 
for their smuggling fee, and instead were forced to pay with 
their own lives.
    I'm pleased to note that just yesterday, some very 
significant arrests were made in Phoenix with respect to these 
ongoing investigations. Local law enforcement agencies in 
Arizona attribute most of the increase in immigrant-related 
violent crime, hostage taking and home invasions, to an active 
alien smuggling trade there.
    It is clear as evidenced by these examples that alien 
smuggling is not confined to any geographic region, is a 
problem of national scope which requires a coordinated national 
response. BICE is currently developing a foreign and domestic 
anti-smuggling strategy, which has as a cornerstone the 
implementation of critical incident response teams. The purpose 
of these investigative teams is simple and effective, to begin 
the investigation, like in Victoria, of a critical incident as 
quickly as possible, bringing to bear this Bureau's broad 
spectrum of statutory authority supported by a robust 
infrastructure to include language and cultural specific 
interview skills, land, air and marine smuggling assets and 
intelligence crime scene management, victim, witness, forensic 
and financial tracking specialists.
    Increased efforts are also placed on addressing the 
smuggling of juveniles into the United States which has surged 
in recent years. This increase is driven by the demand created 
by U.S. citizens and others wanting to illegally adopt children 
from abroad, immigrants attempting to reunite their families, 
and various forms of child exploitation. Trafficked children 
are often lured by promises of education, a new skill or a good 
job. Other children are kidnapped outright and then bought and 
sold as commodities.
    In the aftermath of the September 11th attacks we also more 
fully appreciate our vulnerabilities with respect to terrorists 
using established smuggling networks to threaten domestic 
public safety, as well as American interests abroad. BICE views 
the destruction of transnational smuggling and trafficking 
organizations as an extraordinarily high priority.
    The most effective means of addressing this vulnerability 
is by attacking the problem in source and transit countries, 
thereby preventing the ultimate entry of our enemies into the 
United States. To that end we presently serve as co-chair with 
the Department of Justice and with Central Intelligence Agency 
to an interagency working group targeting smuggling 
organizations that present national security concerns for the 
United States.
    Members of this Subcommittee have previously raised the 
issue of a need for enhancing penalties for smuggling offenses. 
While we believe that penalties set forth in Section 274 of the 
INA to be adequate, in practice, the sentences imposed in other 
than the very high-profile cases traditionally have been quite 
short.
    We look forward to working with this Committee in our 
efforts to save lives and secure national interests. I thank 
you for inviting me to testify, and I will be glad to answer 
any questions.
    Time permitting, I do have some compelling photographs 
which depict the callous disregard alien smugglers have for 
their human cargo, which at your convenience, we would be happy 
to show. Thank you, sir.
    [The prepared statement of Mr. DeMore appears as a 
submission for the record.]
    Chairman Graham. Thank you.
    Mr. Malcolm?

 STATEMENT OF JOHN MALCOLM, DEPUTY ASSISTANT ATTORNEY GENERAL, 
            CRIMINAL DIVISION, DEPARTMENT OF JUSTICE

    Mr. Malcolm. Mr. Chairman, members of the Subcommittee, 
thank you for the opportunity to appear on behalf of the 
Department of Justice to discuss the problems of international 
alien smuggling and human trafficking, which we sometimes to as 
trafficking in persons.
    These two serious crimes, distinct in nature, but related 
in their effects, are of great importance to the Department 
because they present both national security and human rights 
concerns. In my role as a Deputy Assistant Attorney General in 
the Criminal Division, I oversee the Domestic Security Section 
and the Child Exploitation and Obscenity Section, which are the 
offices within the Division that focus on these offenses.
    The Department's Civil Rights Division also has criminal 
prosecutors who target human trafficking, and we often 
coordinate our efforts with them in combatting these pernicious 
offenses.
    Ultimately, alien smuggling and human trafficking subvert 
our Nation's sovereignty. Alien smuggling puts the decision 
about who enters our country into the hands of criminals who 
may not know and probably don't care if their actions help 
terrorists or other criminals to enter our country. Both types 
of crimes strain limited resources and penalize persons who 
wish to enter our country legally. These crimes also enable 
international criminal organizations to flourish throughout the 
world and breed corruption often of border officials in other 
countries, thereby undermining respect for the rule of law and 
harming basic democratic institutions.
    Some have argued that alien smuggling is a so-called 
victimless crime. I would like to put that pernicious myth to 
rest. Smuggled migrants are often subjected to violence and 
inhumane and dangerous conditions. Some are trafficked into 
sexual exploitation or forced labor. Others die every year from 
drowning, abandonment, accidents of brutality by smugglers. 
While it is not uncommon to find one or two bodies in the 
mountains or in the desert, it's only when a large number of 
migrants die that the national attention focuses on the danger 
that these desperate people face. The recent deaths of nearly a 
score of migrants in Victoria, Texas who suffocated to death in 
a tractor-trailer, abandoned by their smugglers, is only the 
most recent example.
    Even if migrants arrive at their intended destinations 
alive and unscathed, however, smugglers have been known to 
extort payments and exorbitant fees by forcing migrants into 
virtual slavery, including selling them into sexual 
exploitation or by holding family members, back in their home 
country, for ransom. The Department takes these cases 
seriously.
    Primarily through United States Attorneys' Offices around 
the country, we prosecute a large number of alien smuggling 
cases every year. In 2001 we obtained approximately 1,900 
convictions for alien smuggling offenses, 17 percent of the 
total number of immigration related convictions for that year.
    We owe this Subcommittee, the Judiciary Committee and the 
Congress as a whole a debt of gratitude in enacting legislation 
that has helped us fight immigrant smuggling and human 
trafficking. Most notable were the Trafficking of Victims 
Protection Act of 2000, as well as legislation in recent years 
that focused on alien smuggling and document fraud crimes and 
penalties. Relying on the TVPA and a variety of other statutes, 
the Department has moved forcefully to punish traffickers as 
well as to assist their victims. As of March 2003, there are 
128 open trafficking investigations, nearly twice as many as 
there were in January of 2001.
    We use various methods to investigate and prosecute these 
crimes. Sometimes agents discover smuggling operations or human 
trafficking operations while in progress, as occurred in 
Victoria, Texas. More typically, especially in smuggling cases, 
law enforcement officers will encounter a small group of 
persons along the border with a coyote, who is the person who 
has been designated as a guide to guide the migrants over the 
border. Sometimes agents will receive informant tips or 
intelligence from foreign countries. Particularly in cases of 
large-scale criminal operations, those investigation may be 
long term, resource intensive and involve the use of 
confidential informants and undercover agents.
    As with the war on terrorism, interagency and international 
cooperation is essential to our efforts. The Criminal and Civil 
Rights Division work with other agencies such as the FBI, the 
Department of Homeland Security, the Labor Department and the 
State Department, as well as with foreign law enforcement 
counterparts.
    We also have worked to strengthen the laws of other 
countries and to make smuggling and trafficking extraditable 
offenses. We have assisted other countries in their efforts to 
remove corrupt officials who aid alien smuggling organizations, 
and have helped our foreign counterparts to initiate their own 
prosecutions.
    Lastly, I would like to describe a couple of recent cases 
that exemplify our alien smuggling and human trafficking 
prosecutions. Last year here in Washington we tried and 
convicted an Iranian national, Mohammed Hussein Assadi, for 
alien smuggling. Assadi ran a large-scale organization that 
smuggled aliens, generally from Middle Eastern and South Asian 
countries, into the United States on commercial airlines. 
Assadi's ring provided aliens with stolen photo-substituted 
passports from European countries that qualify for visa waiver 
privileges under U.S. laws. As a result of interagency and 
international cooperation from other countries, Assadi was 
apprehended and then expelled from the foreign country, and he 
was sentenced to 30 months in prison.
    A recent human trafficking case, United States v. Kil Soo 
Lee, involved sweatshops in American Samoa. FBI agents worked 
with the Labor Department and INS investigators to uncover a 
trafficking scheme where 200 Vietnamese and Chinese nationals, 
mostly young women, were smuggled into American Samoa from 
Vietnam to work as sewing machine operators in a garment 
factory. The traffickers held these women for up to 2 years, 
using extreme food deprivation, beatings and physical restraint 
to force them to work. In February a jury convicted Kil Soo 
Lee, the owner of the factory and leader of the organization on 
nearly all of the counts. Two other defendants pled guilty. Mr. 
Lee is going to be sentenced this December and faces a 
substantial prison term.
    The sentences in smuggling and trafficking cases have 
varied significantly. Some cases have had significant sentences 
and a number have not. It's my understanding that the 
Sentencing Commission has put on its agenda for the upcoming 
year a review of immigration related guidelines, and the 
Department looks forward to working with this Subcommittee and 
with the Sentencing Commission on these issues. In particular, 
as noted in my written testimony, and as will be, I expect, 
highlighted by some of my colleagues, such as Paul Charlton in 
the second panel we believe that sentences, particularly in 
alien smuggling cases that have not resulted in death or 
violent injury do not always appropriately reflect the 
seriousness of the crime, and we look forward again to working 
with the Subcommittee to improve our laws.
    We believe that this could assist the Government's efforts 
to discourage illegal immigration while prosecuting to the full 
extent of the law those smugglers and traffickers who deal in 
human misery, exploitation and desperation.
    I would ask that the full text of my written comments be 
included in the record, and with that, I would be happy to 
answer the Subcommittee's questions.
    [The prepared statement of Mr. Malcolm appears as a 
submission for the record.]
    Chairman Graham. It will be ordered as such.
    Could we see the photos right quick? Then we will go to 
Senator Cornyn.
    Mr. DeMore. I believe one of my two colleagues at the table 
might have personal involvement in these cases as well, so, 
please, if you do, join in.
    This just shows the disregard, as I suggested before, that 
the alien smugglers show for the aliens. This individual is 
secreted in a dashboard of a vehicle.
    Chairman Graham. That is a person in a dashboard?
    Mr. DeMore. This is a woman, whose face you can see if you 
were to open the glove box, but her body literally is secreted 
behind the dashboard.
    This gentleman here was literally--he had a chair built 
around him, and you can imagine the heat in that configuration. 
And as you know, the line sometimes getting into the country is 
significantly significant, so.
    This just shows over-the-road smuggling. The number of 
people that are put into some of these vehicles are beyond 
comprehension. I've seen 25, 30 people come out of a vehicle 
that were really--
    Chairman Graham. What will they charge someone?
    Mr. DeMore. Now, when I was doing alien smuggling, the fee 
was $300 from roughly the Tiajuana area to Los Angeles. I am 
told now because of the successes of the Border Patrol on the 
border, it is closer to $1,000 to $1,500 for the--
    Senator Cornyn. You mean when you were combatting it?
    Mr. DeMore. Yes, sir.
    Senator Cornyn. I think you said when you were doing alien 
smuggling.
    [Laughter.]
    Senator Cornyn. We understood what you meant, but I wanted 
the record to be clear.
    Mr. DeMore. Again, you see the number of people that are 
put into these vehicles put them in great harm.
    Senator Cornyn. How old are those children?
    Mr. DeMore. You will find people put in trunks and backs of 
vehicles that children, elderly people, there is no real regard 
for their physical comfort or safety. These two vehicles here 
were subject to rollovers. Very often the smugglers will ask 
one of the smuggled aliens to drive for a reduced fee, and 
people who have very limited skills, and particularly on the 
highways in the United States take behind the wheel, and often 
they result in rollovers and fatalities.
    Senator Cornyn. Go ahead.
    Mr. DeMore. Maritime smuggling is also a significant 
threat. Hundreds and hundreds of people may be put on a vessel, 
three or four weeks at sea. We have found aliens have been 
thrown off of the vessels. If, for whatever reason, they seem 
to pose any kind of threat to the smugglers, they have been 
known to be thrown into shark-infested waters. We have actually 
recovered bodies that have been attacked by sharks after the 
smugglers had thrown them overboard.
    Use of containers, as the testimony suggested, we have seen 
that coming from China--people put for weeks on end into 
containers and obviously some perish and the rest are literally 
trapped in the container with the deceased until such time as 
they can be--
    Chairman Graham. And you are talking about weeks, not days.
    Mr. DeMore. Weeks, yes, sir.
    This is the Victoria case. Obviously, ultimately, 19 
deceased aliens. In fact, it is so horrific that I will tell 
you that interviews of the aliens suggested that a group of 
adult males wished to dismember the child that you referred to 
Senator so as to be able to force his body parts through the 
truck--so as to alert people on the outside that they were in 
such peril. That is the degree of, that is just horrific. 
Obviously, the bodies. These are the 14 individuals that have 
been taken into custody, charged with various crimes relating 
to this conspiracy.
    Now, these people are, are they the masterminds or are they 
the worker bees or do we know?
    Mr. DeMore. It is a combination of both.
    Chairman Graham. A combination of both.
    Mr. DeMore. We have some significant players here, a woman 
that would, immediately after the arrest, went to Honduras. We 
do not have extradition with Honduras. We ultimately were able 
to lure her into Guatemala and ultimately take her into 
custody.
    Chairman Graham. What do we need to do to get extradition 
with Honduras?
    Mr. DeMore. I sure the Department of State could probably 
best answer that, but that would be helpful. We have known of 
other cases, and I think one of the U.S. attorneys will refer 
to that in the second panel.
    This shows some of the smuggling routes. Smugglers will use 
multiple transit countries, numerous conveyances, types of 
conveyances, travel documents from a whole host of countries, 
some good, some bad.
    This is a proprietary. This is actually a house that we set 
up in the context of an alien smuggling organization so we 
could identify the alien smugglers and subsequently present for 
prosecution. It was all set up for video and audio. We could 
actually watch the smugglers bring the smuggled aliens into the 
house and identify who was involved, and what kind of capacity, 
in this operation.
    This is the monitoring of the load house from an adjacent 
residence, where we had the tech equipment set up.
    This is a really interesting vehicle. This was interdicted 
last week by the Coast Guard. It is an old Chevy truck that 
they affixed pontoons to, configured the drive train to turn a 
propeller, and I am told that it was about 50 miles at sea when 
it was interdicted by the Coast Guard. And my first question 
was that is interesting that they were wearing life rafts, but 
those were obviously dropped by the Coast Guard.
    So this is the kind of ingenuity the smugglers will use and 
the dangers, the present dangers, they put the aliens, subject 
them to.
    I think that is it.
    Chairman Graham. Thank you very much. It is very 
informative.
    Senator Cornyn?
    Senator Cornyn. Just so we understand the scope of the 
problem, a couple of you I guess have differentiated between 
human trafficking and alien smuggling, and I assume those are 
both done for a profit motive; is that correct, Mr. Malcolm, in 
your experience?
    Mr. Malcolm. Yes, Senator. The difference between the two, 
very simply, is that people who are trafficked are brought in 
by force, fraud or coercion, and once they reach their 
destination, they are enslaved in either domestic labor, farm 
labor or sex labor situations. People who are smuggled have 
paid a fee for the purpose of coming into this country, and 
once they pay those fees, often being exorbitant, they are set 
loose into the community or they join loved ones to make it on 
their own, but they are both highly profitable activities.
    Senator Cornyn. But I assume that if someone is willing to, 
for money, traffic in human beings or to assist in the 
smuggling of human beings, there is no reason why that same 
person, interested in purely a profit motive, would not 
cooperate with terrorists in infiltrating our country. Would 
you agree with that Mr. DeMore?
    Mr. DeMore. Yes, sir, I would. In fact, we know of Middle 
Eastern nationals who are resident in third-party countries, 
Ecuador, Uruguay, other countries, that actually facilitate the 
movement of aliens from the Middle East through transit 
countries destined to the United States.
    Senator Cornyn. Well, for example, in my State of Texas, we 
share a 1,200-mile common border with Mexico, and some have 
concerns, and I share those concerns about the consequences of 
human smuggling, when it is people who are coming across the 
border merely to work here, and what happens to them, but I 
also have a concern about others from other countries who may 
come to Mexico and across our borders because they know that 
that is a porous border, and getting less porous all of the 
time, I hope, but still porous nonetheless.
    Mr. Harris, in your experience or your agency's experience, 
have you seen that phenomenon?
    Mr. Harris. Could you clarify the question, please.
    Senator Cornyn. Sure. People coming from other countries to 
a place like Mexico to cross our border on the U.S.-Mexican 
border, rather than entering through some other route because 
they know that that is a vulnerable border to trans-border 
crossings.
    Mr. Harris. Certainly. As I stated in my opening statement, 
Senator, we arrest on average over a million people a year, by 
and large the bulk of those, over 90 percent of those are from 
the country of Mexico, but the people that we encounter from 
other countries, you can just name pretty much any country in 
the world, we arrest people from those areas.
    We have, this year, arrested about 250 aliens that we refer 
to from special interest countries where there is a high degree 
of interest by the U.S. Government. The bulk of those arrests 
occurred on the U.S. Canada border, but these were not, you 
know, the majority of them were not people actually crossing 
the border. They were encountered by other law enforcement 
agencies during jail check and what have you.
    Senator Cornyn. So those apprehensions could include 
countries that are state sponsors of terrorism on the State 
Department's Watch List, for example?
    Mr. Harris. Certainly. But, by and large, along the U.S.-
Mexico border, we have not encountered any significant increase 
or any significant numbers of those people crossing the U.S. 
and Mexico border. Certainly, we do recognize it as 
vulnerability, but in terms of apprehensions and what have you, 
we have seen nothing significant, no.
    Senator Cornyn. You catch about a million a year?
    Mr. Harris. On average about a million a year. In fiscal 
year 2000, 1.6 million; 2001, 1.2 million; last year was 
970,000/980,000, around in there. We expect a similar number 
this year.
    Senator Cornyn. Do you know how many make it across that, 
due to lack of resources or whatever the reason may be, 
technology, that you do not catch?
    Mr. Harris. Well, there is all kinds--
    Senator Cornyn. Or what percentage you do catch?
    Mr. Harris. I do not have a good answer for that question. 
I will tell you that right now. I have heard and seen some of 
the estimates. I will tell you that in areas where we do have 
adequate resources, where we have implemented our strategy, 
where we have sufficient personnel equipment and technology, we 
are much better at being able to come up with that number. 
Especially where we have the camera systems and sensors and 
what you have, we can tell pretty much what comes across the 
border and then account for what we catch and what we don't. 
But in areas where we don't have those kind of resources, we 
don't have a good way to get that number.
    Senator Cornyn. I have seen figures, it seems to me, and I 
am not trying to be precise here, but somewhere on the order of 
hundreds of thousands that still come across our borders that 
are not apprehended. Would you have any reason to disagree with 
a number in the 200,000 range?
    Mr. Harris. I would have to look at those figures and how 
someone would come up with those types of estimates.
    The figure that I see most recently referred to is the 
Census data about how many illegal aliens we have in the 
country, although I would say that those do not necessarily 
represent people who cross the border between the border 
between the ports of entry and escape. A lot of those country 
came into the country legally, through the ports, with proper 
documents and did not leave the country. I understand that the 
Department has been working diligently to establish a means of 
tracking those types of people to make sure that they do leave 
the country.
    Senator Cornyn. The figure I have seen is about 40 percent 
of our illegal immigration is a result of people who have 
overstayed their visas, which would leave, I guess, 60 percent 
who have gotten here without any legal authority whatsoever. 
But I guess it is really a hard question to say you know who 
you catch, but I guess you do not know who you do not catch.
    Mr. Harris. Certainly. Very difficult to measure. We know, 
obviously, we're not catching everybody. We think we're getting 
much better at it, but obviously we do have some work left to 
do in a lot of areas, especially along the Southwest border.
    Senator Cornyn. The figures I have seen are we have between 
8 to 10 million undocumented immigrants in this country. I was 
shocked to learn, with Senator Chambliss in his Subcommittee 
last week, that we have about 300,000 people currently in the 
United States under final orders of deportation. They have 
exhausted all legal remedies, and we simply do not know where 
they are. So the problem is huge in magnitude.
    Two other quick subjects I wanted to ask about, and 
perhaps, Mr. Malcolm, this one would relate to you. Chairman 
Graham has called this to look at what sort of penalties the 
Congress might enact or consider to deter this sort of 
reprehensible activity. But we have a problem, I guess, 
particularly with Mexico and other countries that simply will 
not extradite their citizens if they are subject to a death 
penalty. I believe that also extends to those who have 
potentially a life sentence. Is that correct?
    Mr. Malcolm. I believe so.
    Senator Cornyn. So that is certainly, I guess, Mr. 
Chairman, something we are going to have to consider and 
certainly something that the State Department in our 
discussions with our neighbors in Mexico, if we are going to 
ratchet up the penalties, whether we are going to get the kind 
of cooperation that I believe we need with neighboring 
countries and other countries in terms of extraditing those 
criminals to this country for proper punishment.
    Finally, let me just ask, Mr. DeMore, a couple of weeks ago 
I filed a bill called the Border Security and Immigration 
Reform Act of 2003, which I hope will restart the discussion 
about a guest worker program in this country. I simply want to 
ask you: If Congress is able to come up with a legal means for 
people to come from other countries to this country to work and 
then to return to their home country with the money that they 
have earned, will that relieve some of the pressure that we 
feel now because people feel like they have no means to get 
here legally, so they simply turn themselves over to human 
smugglers and others who have no concern for them at all?
    Mr. DeMore. Sir, if the Congress were to be so inclined, we 
would work with the Congress to make sure that whatever 
methodology was imposed would be--we would safeguard the 
national security interests in the context of working with you.
    Senator Cornyn. And I do not mean to put you on the spot to 
ask you to endorse some legislation, but it just makes sense to 
me, Mr. Chairman, if there was some legal means for people who 
wanted to come here and work and then return to their country, 
then there would be less people who would turn their lives over 
to these human smugglers and suffer perhaps death and horrible 
injury in the process, because they really feel like they have 
no other way to get here.
    Thank you very much.
    Chairman Graham. Thank you, Senator, and I would like to 
associate myself with your comments about trying to create some 
order out of chaos. The market forces are what we are talking 
about. There are many industries in this country that rely on 
the illegal alien workforce, the immigrant workforce. There are 
many jobs in America that are being filled by this demographic 
group, and if we could find a way to make it so that you could 
come and it would be a win-win, help the American economy, help 
the individual involved lawfully enter the country, lawfully 
leave, save some lives, I think that is a must before we can 
ever get our hands around this problem.
    But what I want to talk about is in 2000 we passed the 
Victims of Trafficking and Violence Protection Act, which I 
think is a great thing to have done. The reason I wanted to 
have the hearing is to sort of inventory where we are at, what 
can we do to supplement your efforts to enforce this Act, what 
deficiencies have we seen in the Act, and sort of give you a 
chance to make a shopping list. If you could, what would you 
change about it?
    The first question I have, Mr. Malcolm, is: Human 
trafficking, I think I understand after your testimony, is 
different from alien smuggling. Alien smuggling, you take money 
and your job is to get them here. And once that job is 
complete, they sever the connection. The way you make your 
money in human trafficking is you take somebody against their 
will, and you use their body or their services to make money. 
You make slaves out of them, you sexually exploit them or other 
things to get money out of them.
    Does the death penalty apply in a situation where somebody 
is involved in human trafficking and a death results?
    Mr. Malcolm. Actually, Senator, in terms of traffickers, 
you can make money both ways. You can promise--get people here 
by fraud, giving them false promises and extort a fee from 
them, and then get them here and enslave them.
    Chairman Graham. Right.
    Mr. Malcolm. The answer to your question is no, there is no 
death penalty provision for human trafficking.
    Chairman Graham. Would you suggest that we embark upon 
making that a death penalty offense if someone dies as a result 
of that activity?
    Mr. Malcolm. I wouldn't want, Senator, to commit 
prematurely on behalf of the administration. However, as you 
said in your opening statement, you weren't sure why--whether 
there was a principled reason for a difference between the two, 
and I can't see one either.
    Indeed, both alien-smuggled victims and traffic victims are 
subjected to horrendous risks while being transported here. 
Once they get to the destination countries, alien-smuggled 
victims are frequently set free; whereas, for traffic victims, 
the danger and horrors for them are just beginning.
    Chairman Graham. I am just speaking for myself. It seems 
between two classes of cases, the people that would be the best 
candidates for the death penalty are someone who seizes by 
force or coercion or trickery and enslaves someone and makes 
their money from abusing their body or abusing their services. 
And if you could get back and check with your superiors about 
that, I would like to have this Committee looking into 
changing--I guess it's Title 18?
    Mr. Malcolm. Yes, that's correct.
    Chairman Graham. And make sure that the death penalty 
applies in both situations.
    Mr. Malcolm. We'd be happy to work with you on that, 
Senator.
    Chairman Graham. Thank you.
    Mr. Malcolm. The only thing I would say is that with 
respect to smuggling organizations as opposed to traffickers, 
those are the routes that are used by terrorists so they 
service somewhat different audiences, but they're equally 
pernicious crimes and we're happy to work with you.
    Chairman Graham. I appreciate that very, very much.
    Mr. DeMore, Senator Cornyn sort of asked a question about 
legal changes in terms of how people come, to have a route to 
get people here where they can actually help the economy and 
return to their home country and it would be a win-win. What is 
your opinion of an immigration change where people would have a 
route to come to America for the purpose of working 
temporarily, then going back to the country of origin?
    Mr. DeMore. Sir, I think that's a dialogue that should 
certainly take place, and we would be most happy, as I said 
before, to engage you in that discussion and do so in a way 
that would be consistent with ensuring the integrity of the 
American immigration process.
    Chairman Graham. Now, this is a global problem, as you have 
demonstrated. Is there any particular country that is more 
friendly to this type activity than others? Is there a 
particular regime out there where, if you are a human 
trafficker or a human smuggler, this is a good place to work 
from?
    Mr. DeMore. I wouldn't look at a particular country from 
the context of the government providing any kind of safe haven, 
but there are areas where foreign government officials are 
sometimes exploited by the alien smugglers, and anywhere where 
there is a deteriorating economy, government officials are more 
subject to being corrupted and lends itself to the basic kinds 
of places where you would expect to see alien smugglers operate 
relatively freely, certain countries in Asia, South America, 
Central America, the Caribbean.
    Chairman Graham. Chief Harris, if we move people to Canada, 
the main reason we are doing that is to try to prevent people 
who are of the terrorist mentality from having easier access?
    Mr. Harris. As I mentioned in our opening statement, our 
mission, the mission of Border Patrol, has remained virtually 
unchanged. Our responsibility is to patrol the border between 
the ports of entry. But our priority mission within that and 
part of Customs and Border Protection is the prevention of 
terrorism and entry of terrorists and weapons of mass 
destruction.
    Chairman Graham. My question is: Generally speaking, 
Canadians are not flooding the borders. Canadians are not 
coming across in great droves. Why are we moving people to the 
Canadian border?
    Mr. Harris. The U.S.-Mexico border is 2,000 miles. The 
U.S.-Canada border is 4,000 miles, so it is twice the length, a 
lot of vast, open terrain. Prior to the attacks of September 
11th, we had about 368 Border Patrol agents who were 
responsible for patrolling that 4,000 miles, certainly 
inadequate, but our strategy was to put the bulk of our 
resources where we saw the majority of the illegal immigration 
problem, which was along the Southwest border. But certainly 
the attacks of September 11th changed our Nation and our 
agency. You know, it's never going to be the same again.
    So we recognized fully that the Northern border, even 
though we didn't have the volume, it represented a 
vulnerability and that we needed to do something to close that 
gap. Congress passed the PATRIOT Act stating that we needed to 
triple the amount of resources on the Northern border. We 
certainly intended to do that. Last year, we put 245 additional 
agents up there. Commissioner Bonner recently directed us to 
deploy additional agents. We think those thousand agents, 
together with additional technology that we are putting up 
there, the camera systems and the sensors, is going to provide 
us with a degree of detection and response capability along 
that 4,000-mile border that we never did have before.
    Chairman Graham. Was the border a place where people 
involved in human trafficking would come down from Canada? Has 
that ever been a serious problem in the past?
    Mr. Harris. I have seen and read some reports about, for 
example--I'll give you an example--saying that the cost of an 
airline ticket from Mexico to Canada was less expensive than 
paying a smuggler $1,000 or $2,000. So the possibility existed 
that, you know, people were flying up to the Canadian--into 
Canada and then crossing the U.S.-Mexico--or U.S.-Canada 
border. But I have not seen that. The statistics, the 
intelligence that we have is--
    Chairman Graham. There is no data to suggest that--
    Mr. Harris. Does not prove that out.
    Chairman Graham. Right.
    Mr. Harris. On average, we make about 13,000 arrests a year 
along the Northern border, but about 70 percent of those are 
aliens who crossed the U.S.-Mexico border and then migrated up 
North and they were apprehended by our agents on patrol there. 
So not a lot of people crossing, but a very long border that 
needs to be patrolled. I mean, it does represent a 
vulnerability. We're trying to shore that up a bit.
    Chairman Graham. Well, the last question I have I will 
address to each of you. We are a couple of years into the 
Victims of Trafficking and Violence Protection Act, and if you 
could, just as briefly as possible but not cutting yourself 
short, tell us how you believe the Act is working and what 
would you like to see changed. And I know you may not give us a 
full answer now, but what I would suggest is go back to your 
agency, inventory among yourselves, sit down and think about it 
a while, and kind of give us a list. What would you like to see 
us do in terms of legal changes or structural changes to make 
this Act more effective? And that is an open invitation.
    Mr. Malcolm, could you tell us generally how the Act is 
working and what you would like to see changed, if anything?
    Mr. Malcolm. In terms of the changes, Senator, we'll get 
back to you. In terms of how it's working, the answer is, in 
short, very well. The Act doubled sentences that were 
potentially available, made immigration benefits, medical 
benefits, available to victims of severe forms of trafficking. 
We have more open cases. The hotline is working extremely well. 
The Act provided for an annual report by the State Department, 
the tracking persons report, which ranks countries. Countries 
that are so-called tier three countries have to improve their 
anti-trafficking effort or face potential assistance sanctions, 
and that's provided a great incentive for them to cooperate 
with our efforts. The Act is working very well.
    Chairman Graham. Mr. DeMore?
    Mr. DeMore. I agree with my colleague. We've received over 
450 applications. We've approved 172, 238 pending. I'm not 
aware of any immediate needs for structural change to make it 
better, but I'll certainly dialogue with my colleagues that are 
involved in this daily and see if we can come up with some 
suggestions.
    Chairman Graham. And if you could give us some information 
about sentencing behavior, that is very important to me because 
I want to talk with the Sentencing Guideline folks and make 
sure that we are addressing what I think appears to be a 
deficiency, that the average sentences for many of these cases 
without injury is very, very low, and you are not taking the 
incentive out of doing this. If you could do that, I would 
appreciate it.
    Chief Harris?
    Mr. Harris. A couple of comments, Mr. Chairman. First, I 
appreciate the opportunity to go back and take a look at it and 
come back to the Committee with some recommendations.
    Second, I would just say that in the areas where we do have 
better control of the border, as I had mentioned, our strategy 
is based on a deterrence strategy. And when we bring those 
arrest numbers down, it puts us in a better position to be able 
to enforce the rule of law. Obviously, we probably make more 
arrests than any other law enforcement agency in the world, and 
we recognize fully that the U.S. Attorney's Office cannot 
prosecute everybody who we arrest. But certainly in those areas 
where we do have better control of the border, we have 
excellent cooperation with the U.S. Attorney's Offices, and I 
think we're making a lot of progress there.
    Chairman Graham. Well, please tell your officers we realize 
how dangerous their job is. It is one of the most dangerous 
jobs in law enforcement, and we appreciate their sacrifice and 
service to our country. And that is true of all of you, 
everyone, because I know this is a very tough business that you 
are trying to combat.
    Senator Cornyn, do you have any further questions?
    Senator Cornyn. I just had a couple questions in 
conclusion. Chief Harris, I know we were talking about the 
number that Border Patrol catches each year, and I wonder if 
you would please after the hearing go back and try to provide 
us an answer, the Border Patrol's best estimate of about how 
many people come across the border that, for one reason or 
another, you are unable to catch and they do come into the 
country illegally each year. Would you get that information for 
us, please?
    Mr. Harris. Yes.
    Senator Cornyn. And then you mentioned--did I hear you 
correctly? You said there are now a thousand Border Patrol 
agents on the 4,000-mile U.S.-Canadian border?
    Mr. Harris. They're not there yet, Senator. This was just 
directed. We have gone out with the initial job announcements. 
We are making selections for those positions now, but we're 
shooting to have those thousand agents up on the border by the 
end of this year.
    Senator Cornyn. And how many are there now?
    Mr. Harris. About 600.
    Senator Cornyn. Six hundred. And do you know how many 
agents are on the 2,000-mile U.S.-Mexico border?
    Mr. Harris. Approximately 9,500.
    Senator Cornyn. And I know we have talked to Mr. Hutchinson 
and others about employing technology, including things like 
unmanned aerial vehicles. America is the leader in 
technologies. A lot of the things that we have used to 
supplement and augment our human resources, I think, are going 
to be more helpful so that you do not have to literally have an 
agent posted every few feet on the border. No one is suggesting 
that that would be a good alternative. But I am hopeful that we 
will be able to employ the most modern technology we have to be 
able to assist you in doing what I think we all recognize is a 
terribly difficult and challenging job.
    Thank you. Thank you, Mr. Chairman.
    Chairman Graham. I thank the panel. It was very 
informative. Thank you all for coming very, very much.
    Chairman Graham. Thank you very much for coming to our 
hearing today. We look forward to your testimony.
    If you would please rise, I will swear you all in. Raise 
your right hand, please. Do you solemnly swear the testimony 
you are about to give the Committee is the whole truth and 
nothing but the truth, so help you God?
    Mr. Charlton. I do.
    Ms. Boyle. I do.
    Ms. Cohn. I do.
    Chairman Graham. Again, welcome. Welcome to the Committee. 
I found the first panel very informative, and I look forward to 
hearing from your perspective. If you do not mind, we will just 
do opening statements, and then Senator Cornyn and I will have 
a dialogue with you.
    We will start with you, ma'am.

  STATEMENT OF SHARON B. COHN, SENIOR COUNSEL, INTERNATIONAL 
               JUSTICE MISSION, WASHINGTON, D.C.

    Ms. Cohn. Thank you, Mr. Chairman, for convening this 
important hearing on alien smuggling and human trafficking. My 
name is Sharon Cohn, and I serve as senior counsel and director 
of anti-trafficking operations for the Institutional Justice 
Mission, and we believe that the question of meaningful 
deterrence is the crucial issue in human trafficking. I'm 
grateful to this Committee for the opportunity to share a 
little bit about what we've learned at the IJM through its 
field experience around the world.
    IJM deploys criminal investigators in cities around the 
globe to infiltrate brothels, use surveillance technology to 
document where victims are located, and then we identify secure 
police contacts who will conduct raids with us to rescue the 
victims and arrest the perpetrators. We then coordinate the 
referral of victims to appropriate after-care and support and 
monitor the prosecutions.
    The IJM investigators have spent literally thousands of 
hours infiltrating the sex trafficking industry and working 
with government authorities around the world to bring effective 
rescue to the victims and accountability to the perpetrators. 
Through this, I think we have gained some valuable insight as 
to what provides for meaningful deterrence to brothel keepers 
and traffickers. I'll limit my remarks to sex trafficking, 
accordingly.
    It's estimated that there are between 18,000 and 50,000 
women and girls trafficked into the United States each year. As 
Federal and local law enforcement agencies and the Justice 
Department vigorously investigate and prosecute the offenders 
in the United States, we believe that it is critical that they 
assist in addressing the issue within a global context.
    Like narcotics and arms smuggling, trafficking in persons 
for sexual exploitation is a multinational crime. Similar to 
the drug trafficker caught on the borders of the United States, 
the sex trafficker is part of a series of transactions which 
includes players in the country of origin, the country of 
transit, and the country of destination. So in order to 
effectively disrupt this market, intelligence must be 
transferred back to both the source and transit country.
    And then it is just so vitally important that national and 
local law enforcement in foreign-source countries have the 
political will and have the resources to combat trafficking, 
because our experience has taught us fundamentally this: Sex 
trafficking reaches the United States because it is tolerated 
by local law enforcement in countries around the world. In 
cities around the globe, millions of women and girls are 
trafficked and offered to customers in brothels. And every day 
millions of customers around the world find these girls.
    In fact, it does not good at all for brothel keepers to 
keep the victims hidden. To make money on these transactions, 
they have to hold these victims out to the public not just once 
but continually day after day for sexual exploitation. 
Obviously, therefore, if the customers can find the victims, it 
stands to reason that the police can as well.
    How, therefore, do you possibly succeed in committing this 
crime over and over again, day after day, in front of the open 
public? You do so only if permitted by local law enforcement, 
and generally this is facilitated by bringing the police into 
the business and sharing the profits with them in exchange for 
protection against the enforcement of laws that are in place 
and consider all of these a crime.
    This truth is most tragically demonstrated through the 
lives of the little ones that we have had the privilege to 
assist in rescuing. I want to tell you a little bit about a 
friend of mine named Simla, who was raised in a village off a 
main road to a small city in Asia. When she was 14, a woman in 
the village sold her to a trafficker. She was told she'd be 
working in a restaurant in the city. When the trafficker 
brought her to the city, she was sold to a brothel and told she 
would have to have sex with customers in order to pay off the 
debt--a debt that wasn't hers but was acquired to her when she 
was sold by the trafficker to the brothel.
    For two and a half years, Simla was subjected to sexual 
assaults, multiple times a day. She was beaten when she cried, 
she was beaten when she was sleepy for the customers, and she 
was beaten when she said she wanted to go home. But the worst 
beating that she ever received, the one that made it difficult 
for her to walk, was the beating she received the day after a 
police officer complained that she didn't smile after he had 
finished raping her. He would come to the brothel regularly to 
receive his payment for providing protection for the brothel, 
and sometimes he would rape the girls instead of receiving cash 
payment. Simla's friends in the brothel, who were also 
children, confirmed that other offices regularly visited the 
brothel and abused the girls.
    IJM investigators identified her and others in the brothel 
as minors and brought this to the attention of local law 
enforcement. On the night of the raid, a police officer called 
the brothel keeper and told her that they were coming. The 
brothel was empty of children by the time we arrived. The 
children later told us that they had been--they had received a 
phone call, that they had been loaded on the back of a flat-bed 
truck, covered with a blanket, and driven across town. 
Ultimately, senior police officials communicated down the chain 
of command that the children must be found and released, and 
Simla and her friends were rescued by the authorities later 
that day.
    In fact, just 2 weeks ago, my colleagues in the field 
received information concerning a case where the police are not 
only providing protection for the brothel but, in fact, were 
employed by the brothel to find and return two girls who had 
escaped from the brothel. The police returned to the two girls, 
beaten, and these girls were subsequently shot and killed by 
the brothel keeper.
    Stories like these are repeated throughout the world where 
local law enforcement do the bidding of traffickers and brothel 
keepers. Without police protection, the brothel keeper cannot 
succeed, and with it, he simply cannot fail. Once the police 
switch sides, the brothel is fatally vulnerable and effective 
law enforcement can provide rescue and secure arrests. Until 
they do, it is the girls that are fatally vulnerable.
    So, in the end, the brothel keepers only care about two 
government actions: Is the government seriously threatening to 
actually put me in jail for this crime? And is the government 
seriously threatening to remove the police protection that I 
have paid for?
    What can the U.S. Government do to create a meaningful 
deterrent for sex traffickers? On the domestic front, we 
believe the U.S. Government should fully utilize the Federal 
witness protection program to provide resources to adequately 
protect family members of cooperating victims who continue to 
live at risk in source countries. All law enforcement depends 
upon the cooperation of victims, and the United States has the 
opportunity to set the standard for the world by the way we 
treat the women and girls who are trafficked into this country. 
By employing the T visas and providing witness protection, 
authorities can create a safe environment for cooperation.
    Second, we believe the United States must aggressively 
prosecute sex tourists who create the demand for trafficking 
victims. We commend Congress for passing the PROTECT Act, which 
frees the U.S. Attorney's Offices to vigorously prosecute sex 
crimes committed by Americans abroad. We must encourage 
prosecution and conviction of these criminals and the 
subsequent media coverage to deter other would-be criminals.
    We had a recent experience in Cambodia that is more fully 
explained in my written testimony, but, in short, I will tell 
you the multinational aspect of this crime and American 
culpability is well displayed in this case, where little girls 
as young as 5 years old are trafficked from Vietnam into 
Cambodia. American sex tourists, who learn about this place 
from the Internet and from Internet chat rooms and websites, 
travel to Cambodia specifically for the purpose of sexually 
exploiting these little girls.
    We worked with the Cambodian authorities and with 
Ambassador Charles Ray in order to secure the rescue of 37 
girls, the youngest of whom was 5 years old, and the arrest of 
16 perpetrators who are now charged under Cambodian law and are 
awaiting trial.
    In addition, U.S. Customs is following leads resulting from 
the raid, and we are hopeful that an investigation will result 
in convictions of identified American sex tourists.
    It's hard for me to describe to you, Senators, how horrible 
it is to sit and talk to these girls and have them describe to 
me how it was the Americans who made them sleep with them, it 
was the Americans who they had to spend time in bed with, it's 
the Americans who they were forced to service, and they were 
beaten in order to do so. It is simply imperative that the 
United States crush the demand that's created by its own 
citizenry.
    Third, we would encourage Federal law enforcement agencies 
to continue to communicate through joint training initiatives 
and funding that sex trafficking is a priority issue for the 
United States and that it's a violent crime worthy of attention 
of elite law enforcement.
    Law enforcement priorities are set by senior-level 
political authorities. Where the United States encourages 
engagement on a senior level, it will be able to influence the 
priority and conduct of street-level enforcement. Like counter-
narcotic initiatives, the United States should commit to invest 
significant financial and personnel resources to ramp up and 
improve counter-trafficking initiatives overseas.
    And, finally, we would just encourage the United States to 
improve its information-sharing mechanisms with foreign-source 
countries so that law enforcement attaches in the United States 
embassies overseas will receive the information that is 
obtained through thorough debriefings of victims and suspects 
here in the United States and be able to convey that to local 
law enforcement overseas.
    We just believe the United States has the capacity to 
create a meaningful deterrence, not limited to its own borders, 
through proactive engagement with law enforcement in foreign 
countries, and we are very appreciative for the Subcommittee 
for calling this hearing.
    Thank you very much.
    [The prepared statement of Ms. Cohn appears as a submission 
for the record.]
    Chairman Graham. Thank you very, very much. We have a lot 
of questions for you, I think.
    Ms. Boyle, welcome.

 STATEMENT OF JANE J. BOYLE, UNITED STATES ATTORNEY, NORTHERN 
                DISTRICT OF TEXAS, DALLAS, TEXAS

    Ms. Boyle. Thank you. Chairman Graham, Senator Cornyn, I am 
Jane Boyle, the United States Attorney for the Northern 
District of Texas. I will tell you that it is an honor to 
appear here before you today to recount a recent case in my 
district that illustrates the tragedy of the human trafficking 
form of alien smuggling and I also think typifies the 
difficulties that are posed to prosecutors in prosecuting cases 
of this nature.
    Let me go back to the beginning. In early April 2002, the 
FBI and former INS, along with many factions of local law 
enforcement, initiated a joint investigation into what we 
dubbed ``the Molina organization.'' Through the investigation, 
we learned that between December of 1998 and May of 2002, the 
organization smuggled approximately 200 impoverished young 
Honduran females into the United States. Some of these young 
ladies were as young as 14, we think perhaps even as young as 
13.
    We also were able to determine from the investigation that 
the Molinas enticed these young women, and their families to 
allow them to go, into going by promising them a better life in 
the United States, work as housekeepers and nannies and 
waitresses. To prevail on their impoverished parents to let 
them take the trip and make the change in life, they did make 
this promise to the parents, but they also required that the 
parents, in order for this benefit they promised the girls were 
going to get, pay a large sum, which caused many of them to 
give up the deeds to their property in order to finance the 
trip.
    By all of the girls' accounts, Senators, the trip from 
Honduras to Fort Worth was horrific for these young ladies. 
They described firsthand spending weeks traveling through 
mountains and deserts, walking at night to avoid detection, and 
often going several days without even any food or water.
    To enter the United States from Mexico, some of them were 
located into wooden compartments installed under trucks. They 
were packed in these compartments, some of them, head to toe 
for as long as 10 hours. Many, as you might expect, even 
urinated on themselves in the process, and many suffered 
injuries.
    Upon arrival in Fort Worth, what they thought was the 
promised land of jobs as waitresses turned into them 
immediately being clothed in risque outfits, and this was 
immediate, and then compelled to work in one of four Fort Worth 
area bars controlled by the Molinas. Some of the young women 
were coerced into prostitution, and others were required to 
what they, I would say, loosely described as ``dance'' with 
customers, the male customers, to encourage the sale of 
overpriced drinks. And we're talking about $10 beers, I think 
is what the facts were.
    They earned $100 for a mandatory 60-hour work week, all of 
which was applied to their exorbitant smuggling debt. They 
earned nothing at all if they didn't meet the 200 per week 
quota of selling drinks.
    Undercover agents--and these are veteran FBI agents and 
former INS agents--who saw the young women in the bars were 
struck and moved by the frightened and upset faces that 
characterized these little girls. Some of them described them 
as huddled together, once they go there and realized what it is 
they were going to be doing for a living, huddled together 
holding hands in the middle of the bar. And the agents were as 
moved as I've ever seen Federal agents working undercover.
    The women were forced through intimidation to live in 
residences during this time under the Molinas' control, and 
some of their debts were as high as $10,000 and $12,000 that 
they had to repay before they were allowed to leave. Many were 
verbally abused and intimidated with threats of capture by 
immigration authorities. And, again, the Molinas also 
threatened to take the victims' families' properties--you can 
imagine these were not lavish properties, what they had--from 
their families in Honduras if they didn't pay off their debts.
    We determined that the smuggling operation the Molinas 
controlled was very lucrative and quite sophisticated. Without 
getting into great detail, we found that during the time period 
that we watched the investigation, approximately $1.7 million 
was wire transferred from locations throughout the United 
States to Molina smugglers throughout Latin America and in 
North America.
    The investigation culminated in the execution of search 
warrants and administrative inspections of several bars and 
restaurants in Fort Worth. In all, we detained 93 individuals 
out of the arrests and search warrants; 34 of those we 
determined to be actually the smuggling victims.
    Thirteen defendants, three of which are now fugitives, were 
eventually charged with various violations of the Federal 
immigration laws, including smuggling illegal aliens into the 
United States, our familiar Section 1324 of Title 18 statute. 
Five of the defendants were also charged under the TVPA, which 
I will say as an aside has been a wonderful tool for 
prosecutors since it's been enacted. Ten members of the 
organization that we were able to capture and charge pled 
guilty to the smuggling charges. Their sentences were around 5 
years, some over, most under 5 years in prison.
    I want to, if I could for just a minute, detail the 
difficulties the prosecution team, Richard Roper and Rose 
Romero, faced during the course of the case, if I could have 
just a minute, Senators.
    Several of the victims' families were threatened by 
Honduras--were threatened in Honduras by fugitive defendants 
and their accomplices. The Molinas threatened to burn the 
victims' family members' houses or even kill them if their 
daughters testified once we were arrested and charged the 
individuals. Unfortunately, we could not guarantee the safety 
of the families in Honduras, and as a result, many of the young 
women were intimidated and reluctant to testify against their 
traffickers.
    The second barrier that we faced, which is characteristic 
of cases of this nature, is we faced a formidable cultural 
barrier with respect to the forced prostitution charges. Most 
of these young ladies came from strict, conservative, Catholic 
homes and refused to publicly admit that they'd been forced to 
engage in nefarious activities such as prostitution. And that 
stymied our ability to charge them under the TVPA as we would 
have preferred, all of the defendants.
    More problems arose when three of the defendants and 
several material witnesses fled to Honduras, and we determined 
that the extradition treaty between the United States and 
Honduras prohibited their extradition.
    Despite these difficulties--and our efforts to rescue the 
victims I believe were successful, Senators--nearly all of the 
34 trafficking victims we have been able to, through the great 
benefit of the TVPA, involve them in what we've called the 
continued presence program, which is a benefit Congress has 
given us under the TVPA. They are receiving assistance and 
hopefully working down the road towards a visa in the United 
States. But, again, that's through the benefit of the TVPA.
    I thank you for your time and attention and your 
indulgence, and I appreciate the opportunity to speak and 
welcome any questions.
    [The prepared statement of Ms. Boyle appears as a 
submission for the record.]
    Chairman Graham. Mr. Charlton?

STATEMENT OF PAUL K. CHARLTON, UNITED STATES ATTORNEY, DISTRICT 
                  OF ARIZONA, PHOENIX, ARIZONA

    Mr. Charlton. Chairman Graham, Senator Cornyn, good 
morning. My name is Paul Charlton. I am the United States 
Attorney from the District of Arizona. I'd like to begin by 
telling you what a distinct honor and a privilege it is to be 
here today to share with you some of the cases and some of the 
events that have taken place in the District of Arizona as they 
relate to alien smuggling. These cases raise concerns about the 
appropriateness of the penalties for alien smuggling under the 
current Sentencing Guidelines, particularly in cases that 
involve the risk of serious injury, death, or that actually 
result in injury and death. It's my understanding, Senators, 
that the Sentencing Commission is currently looking towards 
adjusting some of those sentencing guidelines, and I look 
forward to the Department of Justice, the Congress, and the 
Sentencing Commission addressing this very important issue and 
am thankful to you and your leadership for bringing this issue 
to our attention as well and giving us the opportunity to 
discuss this with you.
    The District of Arizona faces especially daunting 
challenges in combating alien smuggling. The risks inherent in 
transporting human beings through the harsh and unforgiving 
desert of southern Arizona, as well as the increasing violence 
in smuggling, has resulted in a disturbing humanitarian crisis.
    In my written statements, Senators, I've provided a number 
of case examples that show the disparity between sentences that 
an individual can receive in human trafficking cases and human 
smuggling cases. But, Senator, because your questions and 
yours, Senator, have focused on the idea of an inequity 
especially in human smuggling cases as opposed to human 
trafficking cases, I will, with your permission, address my 
comments here now to those cases and the disparities in 
sentences that relate only to human smuggling cases.
    In the case of United States v. Miguel and Johnson, the 
prosecuting attorney, Sara Tessakai, in the United States 
Attorney's Office charged the defendants with three counts of 
alien smuggling involving risk of death where they had 
transported three children in the trunk of a vehicle during a 
hot July afternoon in Tucson, Arizona. One of the minors was 
found unconscious, unresponsive, and had to be revived by 
medical personnel called out to the scene. The defendants pled 
guilty to the indictment without benefit of a plea agreement, 
and yet they receives sentences of only 21 and 37 months, 
respectively.
    In another cases, United States v. Alderette-Moreno and 
Loera-Chavez, two defendants smuggling 19 illegal aliens 
instructed the aliens to get into a van, where they were 
required to lie on the floor of the vehicle and literally pile 
one on top of the other for lack of room. And the van door was 
broken and did not close, so that one of the aliens had to hold 
that door closed while the vehicle was in motion. When one of 
the van's tires blew, the vehicle rolled, killing the man who 
was holding the door and permanently paralyzing another alien 
from the neck down and seriously injuring other occupants of 
the van. Again, the defendants pled guilty, without benefit of 
a plea agreement, to conspiracy to transport illegal aliens and 
alien smuggling where death resulted. One defendant was 
sentenced to 48 months, the other defendant to 57 months' 
incarceration.
    Finally, in United States v. Diego Gallegos Castillo, after 
walking 4 to 8 hours in the southern deserts of Arizona near 
the Tohono O'Odham Indian Reservation, and remaining in the 
wash for a full day and a night, a large group of aliens was 
picked up by smugglers who instructed them to pile into a 
pickup truck. Approximately 11 aliens piled into the bed of the 
truck while three entered the extended cab, which did not have 
a seat, and where a 14-year-old was required to lay across the 
laps of a number of individuals. While the vehicle was 
traveling at approximately 87 to 93 miles per hour, the truck 
flipped over into a wash and resulted in the deaths of four 
aliens. Serious injuries were sustained by the surviving 
aliens. This case went to trial, Senators, and the defendants 
were found guilty of 11 counts of transporting illegal aliens 
resulting in death or serious bodily injury. The defendant was 
sentenced to 72 months' incarceration.
    I hope the cases I have presented for your review have been 
helpful for evaluation of the current state of the Sentencing 
Guidelines with respect to alien smuggling cases.
    Thank you, Senators, for your time and attention to this 
very important issue.
    [The prepared statement of Mr. Charlton appears as a 
submission for the record.]
    Chairman Graham. Senator Cornyn?
    Senator Cornyn. Thank you, Mr. Chairman.
    I would like to first direct questions to Mr. Charlton and 
Ms. Boyle about cooperative efforts with local and State law 
enforcement authorities. I think we have heard from the first 
panel that the Federal Government probably cannot do all this 
by itself, including those of you who are the front-line 
prosecutors for Federal law violations.
    But, Ms. Boyle, would you perhaps, in the Molina case that 
you described, talk about the role, if any, of local and State 
law enforcement authorities to complement the work that you 
did, and if there was not an involvement of those law 
enforcement officials, whether you think that would be 
beneficial or whether you would consider that to be problematic 
for some reason?
    Ms. Boyle. Senator, let me tell you first generally that 
State, local, and Federal authorities have never been--have 
never worked as well together as they have since September the 
11th on all fronts.
    In this particular case, to hone in on that, I don't know 
that we would have gotten the investigation off dead center if 
we hadn't had tips that were initially given in 2001 to the 
Fort Worth Police Department. I believe they received some 
anonymous letters. They were extremely cooperative, and this is 
the Dallas Police Department, the Fort Worth Police Department 
in particular, and the sheriff's offices of both cities, were 
very, very involved in our efforts in the Molina case with the 
former INS and the FBI.
    We could not have done this without the efforts of those 
local agencies. They helped us plan the operation. Probably the 
most crucial part of this operation was what we call the raid, 
and that was the evening that we went in under very precarious 
circumstances. You're going to bars at night with all sorts of 
individuals frequenting them. So under very precarious 
circumstances, we planned this together with the local law 
enforcement authorities, and it turned out very successful. But 
we could not have done it without their help, without their 
intelligence. Their intelligence was very key. We are finding 
these days that local law enforcement play a crucial role in 
providing us the intelligence we need to carry out major 
Federal operations. So this was a perfect example of that.
    So, from my experience in the Molina case, it's a prime 
example of the great work of local law enforcement and their 
contribution to our effort.
    Senator Cornyn. Mr. Charlton, what about your experience?
    Mr. Charlton. Senator, in April of this year, we initiated 
in our district Operation Desert Risk, which was our attempt to 
address the very issue that you are talking about, Senator. We 
invited State, local and Tribal law enforcement officials to 
join Federal law enforcement officials in addressing the issue 
of alien smuggling on the border.
    We received a very good response from State, local and 
Tribal law enforcement officials because everyone recognizes 
that alien smuggling is not just a Federal problem or issue. It 
is a problem which affects all of our local communities as well 
and begins to affect the quality of life issues for our State, 
local and Tribal law enforcement officers and the community.
    We are continuing this operation through the summer months, 
which are our most critical months in Arizona, and we will 
terminate this operation in October, after which we will look 
at the data which we have collected to determine whether or not 
we have, in fact, seen an effective reduction in the kinds of 
crimes, both in smuggling and in collateral offenses that 
surround smuggling offenses in the District of Arizona.
    Senator Cornyn. As Ms. Boyle knows, in Texas, when I was in 
a previous life as attorney general of Texas, we worked 
closely, as State law enforcement officials, with local and 
Federal authorities on gun crime, and it was a--what we 
encountered, before we initiated the Texas exile program is 
what, frankly, I think what the 9/11 report demonstrated, Mr. 
Chairman, at the Federal level is we were not playing as well 
together as we should or working as well together as we should, 
and I know I am gratified to hear what both of you have said 
about the work that you are doing, but we just have to figure a 
way to get more resources into the game, and particularly when 
we are talking about homeland security, we are talking about 
these horrific crimes that you described, I just think we need 
to do everything we can in the Congress to encourage and, 
indeed, to require that sort of cooperative effort.
    One area that I know has been, it does not necessarily 
relate or it might, to some extent, to what we have been 
talking about here today, but it is simple information sharing. 
And you mentioned the intelligence, Ms. Boyle, that you 
received from local law enforcement officials. Well, the 
problem is, I am afraid, too many times it comes from the 
bottom up, but it does not come from the top down. In other 
words, Federal intelligence agencies do not share information 
not only with one another, but they do not share it with State 
and local law enforcement officials, and I know there are 
concerns with regard to maintaining the confidentiality of that 
information, but there are certainly methods to eliminate the 
most sensitive information and provide the functional 
information that is needed in order to fulfill the most 
complete role possible when it comes to dealing with crimes of 
this nature and other nature as well.
    Ms. Boyle, in terms of the organization of the Molina 
organization, would you describe for us, I mean, are we talking 
about sort of the mules, I mean, the low-level people that you 
were able to successfully prosecute. You said some remained in 
Honduras and otherwise. Were you able to cut the head off the 
snake or were you dealing with some lower-level people or some 
combination?
    Ms. Boyle. We did get four individuals that we believe were 
at the top of the organization, Senator, as well as the mules. 
Again, thanks to all of the intelligence that we were able to 
gather. It is a very lucrative business, and it is operating 
out of a very poor country, so the incentive is almost 
impossible to stop someone's inclination towards getting 
involved in that.
    I believe this organization was fairly well bashed. I will 
tell you, though, that that does not mean others will not 
spring up in its place, but I think we just have to be ready to 
go after them when they do and make sure they know that the 
United States will not tolerate this kind of crime.
    But we were able to get individuals at the top of the 
organization, I believe at the very top, and for reasons I can 
easily and would be glad to get into, however, we were not able 
to secure the types of sentences I think that these individuals 
deserved.
    Senator Cornyn. You said they were 5 years, on the order of 
5 years?
    Ms. Boyle. They were. We had one over five and I think 
three others that were slightly under five.
    Senator Cornyn. I agree with you that, given the nature of 
the offense, that that does not seem like a proportional 
sentence, and we would be interested in learning more about 
your suggestions as to what we can do to address that.
    Ms. Cohn, let me, as the father of two daughters, I must 
tell you, and just as a human being, the story that you 
conveyed about sex trafficking and what we might be able to do 
about it is chilling. I guess my question to you, though, is if 
there are Americans who are committing these offenses in 
foreign countries, what sorts of things specifically can we do, 
this Congress do, recognizing that things that happen in 
foreign countries are difficult for our laws to reach, what 
sorts of things can we do, in your opinion, to get at and 
address those sorts of heinous acts?
    Ms. Cohn. Senator Cornyn, the Congress has graciously and 
brilliantly, I think, passed the Protect Act, which changes the 
sex tourism law that was currently on the books. The old law 
required that the U.S. Attorney's Office be able to demonstrate 
that a sex tourist traveled overseas for the purpose of 
exploiting, committing a sexual crime, but they had to prove 
that the intent was formed in the United States in order to 
secure the jurisdictional hook.
    The new Protect Act takes that away and simply requires 
that the U.S. Attorney's Office prove that an individual 
traveled overseas and committed an act, and removes that intent 
requirement domestically. The old requirement sort of suggested 
that the FBI investigators would be able to find neighbors of 
the sex tourists in Oklahoma or somewhere and have them say, 
yes, he told me he was going overseas to have sex with a 6-
year-old--very difficult to prove.
    Now, that is gone, and all you have to prove is that the 
person did, in fact, travel to Cambodia, have sex that was 
illegal in the United States, for example, sex with a minor, 
and you can prosecute them here in the United States. And these 
are sex tourists who travel and come back. They are 
businessmen. They are doctors or lawyers. They travel, spend a 
lot of money to commit a crime they do not believe they could 
get away with committing in the United States, so they travel 
overseas to commit that crime, and now I think Congress has 
given the Department of Justice the tools that it needs to 
convict them here in the United States.
    I should also add that it really, in my opinion, only takes 
a few meaningful convictions to create that deterrent effect 
that you were talking about because these areas get known, for 
example, this area of Svay Pak in Cambodia, become known 
because of websites and Internet chat rooms.
    The example of how effective the deterrents can be is after 
we were able to secure the raid in Cambodia and rescue the 
girls and have the perpetrators arrested, the Internet chat 
rooms that cover that area called Svay Pak were saying the 
party is over in Cambodia. And that is the kind of information 
flow that you want to generate, and I think a few convictions 
here in the United States would send that message that sex 
tourism by Americans is not going to be permitted any more.
    Senator Cornyn. Thank you, Mr. Chairman.
    Chairman Graham. Thank you, Senator Cornyn.
    For the record, we have a statement here from Senator Biden 
that I would like to introduce into the record and Senator 
Leahy, and we will hold open the ability of members to make 
written questions to the Subcommittee and to the witnesses for 
one week.
    I would just like to acknowledge Senator Cornyn's 
contribution to making this hearing happen, and he has been a 
very good friend, a valuable ally and tried to bring some 
attention to this. So thank you very much, Senator Cornyn.
    Ms. Cohn, we will start with you.
    I am familiar with the Protect Act and what we are trying 
to accomplish, but it seems to me that the real gap is foreign 
countries, and their willingness to allow this to continue. Is 
there anything that you can think of, other than the Federal 
Witness Protection Program, where we can have people more 
forthcoming about prosecutions that we can do to bring more 
attention, and what countries are you talking about?
    Ms. Cohn. Mr. Chairman, we work throughout the world, and I 
have spent a lot of time on sex trafficking in South Asia and 
Southeast Asia and would draw attention to those ares in 
particular, but I think that the TVPA that Attorney Boyle was 
discussing is one of those instruments that Congress has 
provided the U.S. Government to help combat trafficking by 
addressing foreign countries.
    The TVPA requires that the State Department rank countries' 
performance in their efforts to combat sex trafficking, whether 
they are meeting minimum standards or whether they are making 
significant efforts to meet those standards to combat 
trafficking.
    I think that tier-rating system does help. I would be 
excited to see it employed more vigorously, particularly as the 
State Department examines how complicit Government officials 
are in those countries and whether those countries can provide 
evidence, documentation that they have disciplined corrupt 
police officials and that they have convicted brothel keepers 
and traffickers.
    Mr. Chairman, I would just sort of direct you to the TIP 
report, the Trafficking In Persons report, that just came out 
in June. And if you look through it, it is required to discuss 
the prosecutorial effectiveness in certain countries as they go 
against the traffickers and brothel keepers. And you will find 
in a great majority of countries, that prosecutions are 
abysmal, to an extent, difficult to articulate today, but that 
it is difficult, almost impossible, to secure a conviction in 
those countries. And I think that the U.S. Government, 
including this Congress, can, in all of its communications with 
those countries, demonstrate how serious the U.S. Government 
takes this issue and that failure to demonstrate that 
significant efforts are being taken in those countries to 
combat trafficking will lead to penalties and sanctions by the 
U.S.
    Chairman Graham. If you could provide sort of your view of 
this to supplement the June report about what you think are the 
most egregious countries, in terms of lack of prosecution, I 
would appreciate it.
    What are the numbers that we are talking about of Americans 
who have been convicted for going overseas in sex tourism?
    Ms. Cohn. I think the conviction numbers for Americans is 
dramatically low. I don't have the numbers--I don't have the 
numbers available, but--
    Chairman Graham. Any idea of the volume of how big a 
business this is?
    Ms. Cohn. I think I read a statistic that ECPAT, which is 
the End Child Prosecution and Trafficking NGO organization, I 
think estimates that 25 percent of sex tourists are Americans.
    Chairman Graham. Do you have a number on that. Are we 
talking thousands of people?
    Ms. Cohn. You are certainly talking thousands of people. I 
am not sure if you are talking more than that.
    Chairman Graham. Thank you very much.
    Ms. Boyle, the Fort Worth case I think illustrates some 
success and a problem, and that is the Honduran Government. I 
am very concerned about foreign countries' willingness to help 
us address a global problem. At the end of the day, what kind 
of cooperation did you get from Honduras, if any?
    Ms. Boyle. We did get some cooperation, Mr. Chairman. They 
did help us. At one point, some of our prosecutors, they did 
help us, Mr. Chairman, not to the extent we would have liked, 
but I will tell you they did not cut us off.
    They, at one point, some prosecutors and agents traveled 
down there to find out a little bit more about the threats to 
the families and that status, and they were able to at least 
witness in one situation an actual threat to a family member, 
and they were able to secure from local police what we call up 
here a protective order of that nature. I am not sure how 
effective it was outside of just the paper it was on, but they 
were helpful.
    I think the treaty hurt us without--because we could not 
get the extradition. I can't compare them to other countries, 
but I have talked to the agents and the prosecutors before I 
left to ensure that I was aware of exactly where they stood on 
the Honduran Government's cooperation, and they felt that they 
were cooperative. Their hands were somewhat tied by their own 
laws and really their lack of knowledge about the worldwide 
focus on this.
    But I also think, and I agree so much with Ms. Cohn on this 
very, very important provision of the TVPA, with the tiering of 
the countries, as long as that is focused on and enforced 
vigorously, I think that is going to be a big help to our 
Government to get other Governments to cooperate.
    Chairman Graham. Ms. Cohen, ASEAN is a group of Asian 
Nations. Is there any counterpart to the Protect Act or the 
TVPA Act in Asia or Europe?
    Ms. Cohn. Mr. Chairman, most all of the countries where we 
work have laws that prohibit the acts that we are talking 
about, in one manner or another, whether it is just prohibiting 
child rape or it is prohibiting kidnapping or prohibiting 
trafficking for fraud or more explicit or less explicit. The 
problem is actually not, generally not in what the statutory 
provisions are, as it might be in the U.S., that that 
constrains the U.S. attorneys, but rather that they are simply 
not enforced.
    Chairman Graham. Mr. Charlton, now, you mentioned some 
sentences that seem very low, given the activity involved. When 
the Sentencing Guideline Commission meets, will you have input 
as to how that should be changed, your organization?
    Mr. Charlton. Mr. Chairman, I am sure that through the 
Department of Justice we will have an opportunity to make our 
views and our perspectives known.
    Chairman Graham. I am very interested in the Committee 
getting involved also in working with the Sentencing Guideline 
Commission. I will make the same offer I made to the last 
panel. We have statutes in place now that we did not have 
before. They seem to be working. They seem to empower you to do 
a better job.
    What I would like is sort of make your shopping list. Given 
that dynamic, what can we do to enhance the viability of these 
statutes and what things are left undone in terms of the law 
and resources and provide that input to the Committee, and we 
will try to meet your needs the very best we can.
    I understand, Ms. Cohn, you have some photos or some 
pictures.
    Ms. Cohn. I have one photo just of Simla to help you 
appreciate her age. I did not bring photos of the small 
Cambodian, the Vietnamese children in Cambodia. She is 
currently in aftercare in Southeast Asia, and I just visited 
her not long ago. She is doing quite well. I would like to 
bring her to the States, at some point, but she is one of 
millions of girls who, through no fault or decisionmaking of 
their own, are simply taken advantage of by the greed of 
others, and law enforcement participates in that.
    And I should add only, because I have such great concern 
for her, that if the police are not directly complicit in 
actually killing these girls, as they are in the case where 
they are returned to the brothel keeper, and the brothel keeper 
shot them, they are complicit in the deaths of these girls to 
the extent that the HIV/AIDS transmission among sex trafficking 
victims is just so brutally and extraordinarily high, that to 
be trafficked into that enterprise is essentially a death 
sentence for young girls.
    Chairman Graham. What country are we talking about where 
she was involved?
    Ms. Cohn. Simla was trafficked in Thailand.
    Chairman Graham. Well, thank you all very, very much. God 
bless you in your efforts to deal with this problem. You have 
our full support and encouragement. I am sure that is 
bipartisan in nature, and please take us up on the offer to 
strengthen the current laws and to give you more resources.
    And for lack of a better word, we are just dealing with 
scum here, and we need to act in a cohesive manner to make the 
world a better place.
    God bless. Thank you for coming.
    The hearing is adjourned.
    [Whereupon, at 11:38 a.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.]
    [Additional material is being retained in the Subcommittee 
files.]

[GRAPHIC] [TIFF OMITTED] T1788.001

[GRAPHIC] [TIFF OMITTED] T1788.002

[GRAPHIC] [TIFF OMITTED] T1788.003

[GRAPHIC] [TIFF OMITTED] T1788.004

[GRAPHIC] [TIFF OMITTED] T1788.005

[GRAPHIC] [TIFF OMITTED] T1788.006

[GRAPHIC] [TIFF OMITTED] T1788.007

[GRAPHIC] [TIFF OMITTED] T1788.008

[GRAPHIC] [TIFF OMITTED] T1788.009

[GRAPHIC] [TIFF OMITTED] T1788.010

[GRAPHIC] [TIFF OMITTED] T1788.011

[GRAPHIC] [TIFF OMITTED] T1788.012

[GRAPHIC] [TIFF OMITTED] T1788.013

[GRAPHIC] [TIFF OMITTED] T1788.014

[GRAPHIC] [TIFF OMITTED] T1788.015

[GRAPHIC] [TIFF OMITTED] T1788.016

[GRAPHIC] [TIFF OMITTED] T1788.017

[GRAPHIC] [TIFF OMITTED] T1788.018

[GRAPHIC] [TIFF OMITTED] T1788.019

[GRAPHIC] [TIFF OMITTED] T1788.020

[GRAPHIC] [TIFF OMITTED] T1788.021

[GRAPHIC] [TIFF OMITTED] T1788.022

[GRAPHIC] [TIFF OMITTED] T1788.023

[GRAPHIC] [TIFF OMITTED] T1788.024

[GRAPHIC] [TIFF OMITTED] T1788.025

[GRAPHIC] [TIFF OMITTED] T1788.026

[GRAPHIC] [TIFF OMITTED] T1788.027

[GRAPHIC] [TIFF OMITTED] T1788.028

[GRAPHIC] [TIFF OMITTED] T1788.029

[GRAPHIC] [TIFF OMITTED] T1788.030

[GRAPHIC] [TIFF OMITTED] T1788.031

[GRAPHIC] [TIFF OMITTED] T1788.032

[GRAPHIC] [TIFF OMITTED] T1788.033

[GRAPHIC] [TIFF OMITTED] T1788.034

[GRAPHIC] [TIFF OMITTED] T1788.035

[GRAPHIC] [TIFF OMITTED] T1788.036

[GRAPHIC] [TIFF OMITTED] T1788.037

[GRAPHIC] [TIFF OMITTED] T1788.038

[GRAPHIC] [TIFF OMITTED] T1788.039

[GRAPHIC] [TIFF OMITTED] T1788.040

[GRAPHIC] [TIFF OMITTED] T1788.041

[GRAPHIC] [TIFF OMITTED] T1788.042

[GRAPHIC] [TIFF OMITTED] T1788.043

[GRAPHIC] [TIFF OMITTED] T1788.044

[GRAPHIC] [TIFF OMITTED] T1788.045

[GRAPHIC] [TIFF OMITTED] T1788.046

[GRAPHIC] [TIFF OMITTED] T1788.047

[GRAPHIC] [TIFF OMITTED] T1788.048

[GRAPHIC] [TIFF OMITTED] T1788.049

[GRAPHIC] [TIFF OMITTED] T1788.050

[GRAPHIC] [TIFF OMITTED] T1788.051

[GRAPHIC] [TIFF OMITTED] T1788.052

[GRAPHIC] [TIFF OMITTED] T1788.053

[GRAPHIC] [TIFF OMITTED] T1788.054

[GRAPHIC] [TIFF OMITTED] T1788.055

[GRAPHIC] [TIFF OMITTED] T1788.056

[GRAPHIC] [TIFF OMITTED] T1788.057


</pre></body></html>
